<html>
<title> - YOUTH LEADERSHIP FOR CLEAN ENERGY AND A HEALTHY CLIMATE</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Publishing Office]


 
        YOUTH LEADERSHIP FOR CLEAN ENERGY AND A HEALTHY CLIMATE

=======================================================================

                                HEARING

                               before the
                          SELECT COMMITTEE ON
                          ENERGY INDEPENDENCE
                           AND GLOBAL WARMING
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                            NOVEMBER 5, 2007

                               __________

                           Serial No. 110-18


             Printed for the use of the Select Committee on
                 Energy Independence and Global Warming

                        globalwarming.house.gov




                  U.S. GOVERNMENT PRINTING OFFICE
58-245                    WASHINGTON : 2010
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="690e1906290a1c1a1d010c0519470a060447">[email&#160;protected]</a>  

                SELECT COMMITTEE ON ENERGY INDEPENDENCE
                           AND GLOBAL WARMING

               EDWARD J. MARKEY, Massachusetts, Chairman
EARL BLUMENAUER, Oregon              F. JAMES SENSENBRENNER, Jr., 
JAY INSLEE, Washington                   Wisconsin, Ranking Member
JOHN B. LARSON, Connecticut          JOHN B. SHADEGG, Arizona
HILDA L. SOLIS, California           GREG WALDEN, Oregon
STEPHANIE HERSETH SANDLIN,           CANDICE S. MILLER, Michigan
  South Dakota                       JOHN SULLIVAN, Oklahoma
EMANUEL CLEAVER, Missouri            MARSHA BLACKBURN, Tennessee
JOHN J. HALL, New York
JERRY McNERNEY, California
                                 ------                                

                           Professional Staff

                     David Moulton, Staff Director
                       Aliya Brodsky, Chief Clerk
                 Thomas Weimer, Minority Staff Director


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hon. Edward J. Markey, a Representative in Congress from the 
  Commonwealth of Massachusetts, opening statement...............     1
    Prepared statement...........................................     3

                               Witnesses

Billy Parish, Co-Founder, Energy Action Coalition................     5
    Prepared statement...........................................     8
Brittany R. Cochran, Member, Environmental Justice Forest and 
  Climate Change Initiative......................................    10
    Prepared statement...........................................    12
Cheryl Lockwood, Member, Alaska Youth for Environmental Action...    14
    Prepared statement...........................................    16
Katelyn McCormick, Officer, Students Promoting Environmental 
  Action.........................................................    18
    Prepared statement...........................................    21
Mike Reagan, Board Member, California PIRG.......................    24
    Prepared statement...........................................    26


        YOUTH LEADERSHIP FOR CLEAN ENERGY AND A HEALTHY CLIMATE


                        MONDAY, NOVEMBER 5, 2007

                  House of Representatives,
            Select Committee on Energy Independence
                                        and Global Warming,
                                                    Washington, DC.
    The committee met, pursuant to call, at 9:42 a.m. in Room 
1100, Longworth House Office Building, Hon. Edward J. Markey 
[chairman of the committee] presiding.
    Present: Representative Markey.
    Staff Present: Mitchell Robinson.
    The Chairman. Good morning. Today, the Select Committee on 
Energy Independence and Global Warming will receive testimony 
from five representatives of a youth movement that is demanding 
to be heard and deserves to be heard, not only just by Members 
of Congress but by decisionmakers young and old in business, in 
government and in town meetings and city halls and not just in 
the United States and in the developed world but also in 
developing countries, in Africa and South America and in India 
and China. It echoes movements of the past, but it is all about 
the future.
    This time, young people are standing together as one force 
asking for action, action from our government that will ensure 
a clean energy and a healthy climate future. Adults sometimes 
have a hard time listening to people younger than they, but, in 
this case, it is the youth of the world that have the most 
standing to be heard. When the world science community says 
that the planet is heating up dangerously as a result of global 
warming pollution, they are talking about the future of the 
people in this room.
    On Saturday and Sunday, over 5,500 student activists and 
youth leaders, the pulse of a new politics and new direction, 
gathered at the University of Maryland to push forth solutions 
to the real threat of our climate and energy crisis. I am told 
that it was the largest conference ever held in the United 
States on climate change.
    These young people, representing every single congressional 
district, are our future, a future that is imperiled by efforts 
of climate change and energy policies that are built on cheap 
oil and imported oil. They speak for millions of other young 
people with the same concerns.
    In a recent survey conducted in February of 2007, 81 
percent of young adults recognized that global warming is real. 
We as a government and as a Nation are faced with a decision, 
will we act now to ensure a clean energy and healthy climate 
future for the prosperity, security and health of future 
generations?
    The goal is to cap the world's carbon emissions at levels 
that will keep temperatures from rising dangerously. The 
Congress is considering legislation that would accomplish that 
goal. I am the cosponsor of legislation that would require the 
United States to reduce emissions by 80 percent below 1990 
levels by 2050, and it is clear to me that anything less than 
an 80 percent goal for 2050 is compromising the future. When it 
comes to the future of the children of this world, we cannot 
afford less.
    But the Congress needs to be educated about this subject 
and then educated again and again. That is partly why Speaker 
Pelosi formed the Select Committee on Energy Independence and 
Global Warming, because she wanted at least one panel here in 
Congress to be spending full time on this subject, pressing for 
action every day of every week.
    She also demanded that the House pass an energy bill that 
got us started with dealing with these issues, even before we 
reached the issue of capping carbon; and we haven't done that. 
In the next 6 weeks, the House and Senate will take some very 
key votes on the energy bill, testing whether we have the 
wisdom to adopt tough new standards for automobiles and 
buildings and electricity generation and cellulosic ethanol 
that moves us away from an old energy agenda. If these votes go 
well, we will have the momentum we need to push ahead on a cap 
option and trade bill that will truly transform our energy 
world. We cannot do less than pass this energy bill.
    But we want more, much more; and if we are to stop global 
warming we must do it soon. This is our chance and this is our 
time to fix the policies that now threaten the planet. So there 
could not be a better time to hear from our witnesses today.
    [The prepared statement of Mr. Markey follows:]

    [GRAPHIC] [TIFF OMITTED] T8245A.001
    
    [GRAPHIC] [TIFF OMITTED] T8245A.002
    
     STATEMENTS OF BILLY PARISH, CO-FOUNDER, ENERGY ACTION 
 COALITION; BRITTANY R. COCHRAN, MEMBER, ENVIRONMENTAL JUSTICE 
FOREST AND CLIMATE CHANGE INITIATIVE; CHERYL LOCKWOOD, MEMBER, 
   ALASKA YOUTH FOR ENVIRONMENTAL ACTION; KATELYN McCORMICK, 
 OFFICER, STUDENTS PROMOTING ENVIRONMENTAL STUDENTS; AND MIKE 
             REAGAN, BOARD MEMBER, CALIFORNIA PIRG

    The Chairman. Let me turn and recognize our first witness.
    Our first witness is Mr. Billy Parish, the co-founder and 
coordinator of the Energy Action Coalition and one of the 
foremost young leaders of the environmental movement. Since 
founding the Energy Action Coalition, Mr. Parish has helped to 
turn the idea of bringing colleges across the country together 
to improve our environment into a reality. Rolling Stone called 
Billy a climate hero, and Mother Jones magazine names Billy as 
the student activist of the year.
    Welcome, Mr. Parish. Whenever you are ready, please begin.

                   STATEMENT OF BILLY PARISH

    Mr. Parish. Thank you, Chairman Markey, for inviting us 
here today.
    I want to also thank you and Speaker Pelosi for addressing 
PowerShift on Saturday night and for your leadership over the 
past 30 years on these critical issues.
    I want to finally recognize the thousands of young people 
today standing shoulder to shoulder for the largest climate 
lobby day in U.S. history. Remember, remember the 5th of 
November.
    An unstoppable movement has taken root in every school and 
every community in this Nation. A generation has come to 
Washington today to lead, to be heard and to find allies in 
this Congress who are ready to do what is necessary to solve 
our climate crisis.
    My name is Billy Parish; and I am the coordinator of the 
Energy Action Coalition, a diverse alliance of 46 organizations 
working to support and strengthen the student and youth clean 
energy movement in the U.S. and Canada, to create change for a 
clean, efficient, just and renewable energy future. I have 
brought with me our Coalition's youth statement of principles 
on climate and energy and other supporting documents for the 
Congressional Record.
    We come here today with three demands for Congress:
    One, create five million new jobs through a clean energy 
corps to weatherize, solarize, rewire and rebuild this country. 
Let us put people to work and create green pathways out of 
poverty. Green jobs now. Green jobs now. Green jobs now. Green 
jobs now. Green jobs now.
    Two, cut carbon at least 80 percent by 2050, 30 percent by 
2020 and auction 100 percent of the pollution allowances from 
day one. Science tells us we can aim for nothing else. 80 by 
50. 80 by 50. 80 by 50.
    Three, pass an immediate moratorium on the construction of 
new coal plants. We should shift all Federal subsidies from 
fossil fuels and nuclear to wind and solar and create a just 
transition for workers from the old economy into the new green 
economy. No coal. No new coal. No new coal.
    We will be heard because, at 50 million strong, the 
millennial generation outnumbers even the baby boomers by 3 
million and represents the single largest demographic age group 
in this country. Polling data, recent voter turnout and the 
swelling ranks of an increasing coordination of the youth 
climate movement all demonstrate that this young generation is 
engaged and ready to carry out a historic power shift. Youth 
turnout in the past two elections hit the highest level in at 
least 20 years and is only on the rise.
    We are not alone. Youth are assembling coalitions that are 
bringing together a diverse and powerful set of allies, 
including unions, businesses, people of faith, farmer, civil 
rights groups, and many more.
    And we are not just here in D.C. We are in every 
congressional district in America, and we are organizing.
    Politicians would be wise to take note. Exactly one year 
from today, we will have a new Congress and a new President. 
You have 1 year to prove that you are worthy of being our 
representatives in this government, and if you don't you will 
need to look for a new job as millions of young voters throw 
their support behind more progressive and pro-environment 
candidates committed to ending the climate crisis and 
protecting future generations.
    We will be heard because we are the ones that we have been 
waiting for. As the Bush administration and our Federal 
government has done almost nothing for the last 7 years, young 
people have organized and made change. Through the Campus 
Climate Challenge, tens of thousands of young people have 
engaged in the hard work of making their schools models of 
sustainability for the rest of society.
    In just the last year, 426 colleges have committed to 
becoming climate neutral; and more sign on every day. We are 
building partnerships with community groups to block the 
construction of new coal-fired power plants and launch a green 
wave of urban and rural renewal.
    As our government abandoned the people of New Orleans after 
Hurricane Katrina, tens of thousands of young people dropped 
everything to serve and rebuild. Over 6,000 of us came to 
PowerShift this weekend. Thousands more took part in Step It Up 
across the country.
    We are a generation of solutions, but we know we cannot do 
it alone and have come to seek your help. And we will be heard 
because we are quite literally fighting for our lives. This can 
no longer be a political issue. For the survival of our people 
and our planet, we must put aside partisan politics and come 
together as human, as mothers and fathers, sisters and brothers 
to heal ourselves and our planet.
    This is no small task. As Yvonne Peter told us on Saturday 
night, this is not only an ecological and economic crisis. It 
is a spiritual and cultural crisis that is centuries old. We 
must begin the long process of reconciliation with the original 
peoples of this land, with the people that were brought here 
against their will, especially those from Africa and all the 
people who are poorly served by our society. We cannot 
sacrifice communities for our overconsumption today, not only 
because it is wrong for those communities today, but because we 
will be sacrificing the basis of life for our children and 
future generations.
    I am 26 years old and about to become a father. I implore 
the Members of this 110th Congress to hear our demands. But I 
ask that you hear them not only as politicians but also as 
mothers and fathers, sisters and brothers. We can do this if we 
work together, but we must begin today.
    Green jobs now. Green jobs now. Green jobs now. Green jobs 
now.
    80 by 50. 80 by 50. 80 by 50. 80 by 50.
    No coal. No new coal. No new coal.
    Thank you.
    The Chairman. Thank you. Thank you, Mr. Parish.
    [The statement of Mr. Parish follows:]

    [GRAPHIC] [TIFF OMITTED] T8245A.003
    
    [GRAPHIC] [TIFF OMITTED] T8245A.004
    
    The Chairman. Our second witness is Brittany Cochran. She 
originally is from a small rural town in Louisiana. Our next 
witness, Brittany Cochran, is now a junior at Xavier University 
in New Orleans.
    After work with the Deep South Environmental Justice 
Center, Ms. Cochran became a leader in the environmental 
movement. Since then, she has become passionate about how the 
issues of global warming and energy dependence are affecting 
vulnerable communities like her home in Louisiana. For her 
leadership on environmental issues, Brittany was featured in 
Seventeen magazine.
    We welcome you, Ms. Cochran. Whenever you are ready, please 
begin.

                STATEMENT OF BRITTANY R. COCHRAN

    Ms. Cochran. Good morning. My name is Brittany Cochran, and 
I am a pharmacy student at Xavier University in Louisiana. I 
would like to thank the Select Committee on Energy Independence 
and Global Warming for inviting me this morning to represent 
young environmentalists who are passionate about global 
warming.
    My personal experiences of growing up, living and 
witnessing disproportionate effects of global warming will 
greatly influence my perspectives and testimony.
    As a child, I listened as a woman who assumed the role as 
my grandmother accused petrochemical plants of polluting our 
environment. She blamed them for the death of her daughter, who 
died of breast cancer in her mid 30s. I watched her battle 
major companies and win.
    At that time, I did not realize I was inheriting an 
interest and awareness in environmental justice. As a young 
adult, I have decided to join the fight for a clean and just 
environment for all.
    Global warming is caused by the emission of heat-trapping 
gases produced by vehicles, power plants, industrial processes 
and deforestation. In Louisiana, the effects of global warming 
are exacerbated by coastal erosion. Because of coastal erosion, 
there is no buffer system to prevent places inland like New 
Orleans from being flooded and washed away. Hurricanes Katrina 
and Rita washed away more than 200 square miles of coastal 
wetlands.
    Poor African American communities are the most vulnerable 
and are disproportionately impacted by these destructive 
hurricanes because they live in close proximity to industry. I 
have personally experienced the effects of living so close to 
industry. In 1999, an aluminum plant 5 miles from my home had 
an explosion that sent chemicals and products into the air and 
into our yards. In my lifetime, because of global warming, I 
will probably experience and witness many more catastrophic and 
unprecedented occurrences such as Hurricane Katrina, tsunamis 
and other hurricanes.
    Environmental justice is about fighting for those 
disproportionately affected by global warming. For example, 
people of color, low income and indigenous people are exposed 
to more air pollution in their community and are less likely to 
have health and property insurance.
    Hurricane Katrina demonstrated how minorities and those 
affected disproportionately by global warming are most 
affected. Most of those areas occupied by African Americans in 
New Orleans are still vulnerable and likely to be flooded in a 
major storm. These are the people who don't have the means or 
resources to evacuate, relocate and put their lives back 
together.
    As a resident of New Orleans, Louisiana, a great city that 
bore the brunt of the effects of Hurricane Katrina, it is 
important that I am here to stress the fact that global warming 
is real and it is a hard reality for many people along the gulf 
coast. During Katrina, all of my family members that lived in 
the city lost everything. They lost their homes, their jobs, 
places of worship; and now, 2 years later, none of those 
families have moved back into their homes.
    I, too, personally have been affected because I lost all of 
my campus possessions, and I was displaced from my city and my 
school.
    Many of my peers and colleagues still feel the effects of 
Katrina. Some are behind in their collegial studies because the 
universities were closed for a semester; and, upon reopening, a 
lot of the degree programs were discontinued because of lack of 
faculty members.
    We are faced with extreme increases in rent and living 
expenses, along with a decrease in job opportunities. Because 
of this, we are all impacted both physically and mentally.
    As a young person, I feel it is my responsibility to work 
to combat the crisis of global warming. While working with the 
Deep South Center for Environmental Justice, I helped 
facilitate a seminar on global warming. I taught classes, and I 
introduced it to other youth who have since then committed to 
spreading the word.
    In 2004, I joined the Climate Justice Corps, which is a 
great group of young activists who work with communities that 
have felt the impact of climate change. Together, we help them 
fight against political and industrial causes of climate 
change.
    While it is true that only a select few are burdened more 
than others by pollution and environmental harm, global warming 
effects all races and the economy. Together, my generation can 
make a powerful impact on the future generations. There must be 
a radical change in our society, one that includes making 
global warming a priority so that we can solve the crisis 
before we reach a point of no return.
    Thank you.
    [The statement of Ms. Cochran follows:]

    [GRAPHIC] [TIFF OMITTED] T8245A.005
    
    [GRAPHIC] [TIFF OMITTED] T8245A.006
    
    The Chairman. Next, we have Ms. Charlee Lockwood, who 
exemplifies the efforts high school students are making around 
the country to improve our climate and energy future from St. 
Michael Village in Alaska.
    Ms. Lockwood has taken a leadership role in her community 
on environmental issues. She has traveled the State of Alaska 
giving climate change presentations to her peers and gathering 
signatures demanding action on issues of global warming. For 
all of her work, Ms. Lockwood received the Alaska Conservation 
Foundation Denny Wilcher Award for outstanding high school 
activism.
    We welcome you, Ms. Lockwood. Whenever you are ready, 
please begin.

                 STATEMENT OF CHARLEE LOCKWOOD

    Ms. Lockwood. First of all, I would like to thank you for 
being here to hear about this emergency that we are all facing 
today; and I would also like to thank the PowerShift people for 
being here to support us.
    My name is Tuntuvak, which means moose in Yuptic Eskimo 
language; and my English name is Charlee Lockwood. My mom and 
dad are Rosina and Charles Lockwood. I have four brothers and 
two sisters, 20 nieces and nephews. I graduated from a public 
boarding school in 2007.
    I grew up in St. Michael, where there are 400 people in the 
village; and I grew up going to fish camp and doing a lot of 
cultural activities. I also was brought up by a bunch of my 
elders, which they taught me to respect others the way I want 
to be treated and also how to live off subsistence; and, 
hopefully, someday I get to teach that to my children and my 
grandchildren.
    The global warming effects that I have experienced 
personally is coastal erosion where my families' houses are 
falling into the bay and also the graveyards that we have, like 
the Russian orthodox graveyards, are also falling into the bay; 
and it is where all of our whole family goes and plays. And 
also it is really dangerous.
    But we have also been having decreasing in subsistence 
food, like our moose, our fishing or just seals and whales, all 
the native foods that we eat off the land. The berry picking 
spots that we go every single year are not there anymore. The 
hunters are more endangered in the wintertime because they go 
out on the ice, and a lot of them have fallen through. New----
    The Chairman. Take your time. Take your time.
    Ms. Lockwood. Just through my lifetime, I have seen so many 
changes in our community that it hurts not to be able to have 
our--it is really scary to lose our tradition, our culture. We 
have been living here for thousands of years, and it is not 
just that we are losing our food, it is losing our homes and--
because we are spiritually connected and emotionally and 
physically connected to our homes, and there are so many 
communities that are in trouble.
    It is an emergency. We need to take action now because--I 
don't know if you have heard about the Shishmaref. Their whole 
community has to move, and it has taken so much money just to 
relocate 500 people.
    And we need to take action now. This is going to impact my 
future, all of our futures because we have to leave our homes, 
our traditions, where our ancestors taught us how to take care 
of ourselves from traditional culture lifestyles. And because 
there is going to be nobody else to teach. But we have learned 
from our elders.
    I am in a group called Alaska Youth for Environmental 
Action, and I would like Alaska Youth for Environmental Action 
to stand up.
    Alaska Youth for Environmental Action's mission is to 
inspire, educate and take action on global warming effects in 
Alaska; and they have done so much to encourage people to raise 
their voice and get a lot of things done and to help each other 
out. We have collected 5,000 signatures from all over Alaska, 
high school students just going around and doing presentations 
on awaring about global warming or awaring others about global 
warming and how it is affecting us now and how it could affect 
us in our future.
    We brought the signatures to our congressional legislators 
to show how much this is an emergency, and we have also done a 
3-2-1 pledge to show people what they can do as individuals to 
reduce carbon emissions to slow down climate change. And what 
the 3-2-1 pledge is is just that you change three of your light 
bulbs and you turn your house two degrees down in the 
wintertime and you unplug one appliance in your house. And 
these are just, like, really simple things that could really 
get us so far if we would all just, like, do everything as 
group.
    Most of us that I have met in the whole group--there are 
seven chapters in Alaska right now, and what I have mostly 
heard is to save our values, such at clean water, clean air, 
our homes, our cultures and, most importantly, our future. We 
have gone through a lot to try and get support from our 
leaders, which is everybody, like our senators, our 
representatives; and we need your help now.
    Thank you.
    The Chairman. Thank you. Thank you, Ms. Lockwood.
    [The statement of Ms. Lockwood follows:]

    [GRAPHIC] [TIFF OMITTED] T8245A.007
    
    [GRAPHIC] [TIFF OMITTED] T8245A.008
    
    The Chairman. Our next witness is Katelyn McCormick, who is 
a student at the University of Tennessee and an officer in 
Students Promoting Environmental Action in Knoxville, called 
SPEAK. SPEAK has been involved in initiating and promoting 
renewable energy policies on campus, including a comprehensive 
energy plan, a purchase of 560 megawatts of renewable energy a 
year and a green building certification policy.
    Katelyn is also an organizer of Focus the Nation, which is 
a national teach-in of global warming solutions for America 
taking place on January 31st.
    Welcome, Katelyn. Whenever you are ready, please begin.

                 STATEMENT OF KATELYN McCORMICK

    Ms. McCormick. Good morning. My name is Katelyn McCormick, 
and I am a student at the University of Tennessee in Knoxville.
    First, I would like to take this opportunity to thank you 
for having me speak here today. Not many people who are willing 
to stand up for what they believe in have an opportunity to 
speak out for those beliefs. I am fortunate enough to be able 
to share my experiences here today. I'm here now for justice, 
because lately I have seen many unjust things.
    In early October, I had the privilege to visit a town in 
West Virginia with many other students. We visited one of the 
many areas of Appalachia where the destructive practice of 
mountaintop removal coal mining is taking over and rapidly 
deteriorating an entire region. Standing at the top of Kafer 
Mountain, I looked down at what was once lush forest, a home 
for many creatures, a playground for people, what was once a 
majestic mountaintop; and I felt a knot form in my stomach.
    I overheard someone from our group relate seeing this 
barren mountain to seeing a person's broken bone exposed, and I 
suddenly understood the sickness I was feeling. This was not 
something any of us were meant to see. My heart was heavy, and 
I was overwhelmed.
    However, this was nothing compared to the sadness I would 
feel when a little girl whose elementary school built 300 feet 
away from a coal processing plant and directly below a dam 
containing tons of coal slurry would look at me and say all of 
us kids are getting sick, but they won't build us a new school.
    It was nothing compared to what I felt when I listened to 
families tell me they suffer chronic illnesses because every 
breath they take is tainted by pollution.
    But, even worse, it was nothing to how I felt when I saw 
the red polluted water that runs from the tap.
    How is anyone supposed to live without clean water? Who is 
letting this happen? An entire region is being disregarded 
because the rest of our Nation is dependent on coal. Not only 
is this environmentally unjust; it is socially unjust.
    We all have a right to turn on that light switch, but we 
have a right to use these everyday commodities without worrying 
that, by doing so, we are putting someone else's life in peril. 
As Americans, it is our civic responsibility to respect our 
people and our land. It is our civic responsibility to take 
care of our Nation. But, as human beings, it is our moral 
responsibility to be just and fair.
    Standing here today, I feel like a child telling her father 
that someone has been unfair and asking him to make it better. 
I shouldn't have to tell anyone that our actions are unfair. As 
a Nation, we should always be striving for fairness, working to 
right our wrongs. Instead, we are creating more problems and 
more injustices.
    It is apparent that I am not the only person who feels this 
way. There is a movement happening. Youth everywhere are 
recognizing our world's energy crisis, and we are stepping up 
to fix it. Students across the United States have been working 
on sustainable initiatives for their campuses.
    Campus Climate Challenge has united 300 universities to 
work on 100 percent clean energy policies and progress towards 
sustainable alternatives. Frustrated that our government won't 
recognize the crisis that we are facing, as youth we are 
stepping up to make positive change where we can, starting with 
sustainable campuses and moving up from there.
    This weekend has been monumental. Over 5,000 students have 
traveled here today to work towards a just energy future. We 
are all here for the same reasons, with the same goal in mind; 
and, for the first time, we have been able to unite, learn, 
teach, share and construct numerous methods to initiate and 
implement sustainability on our campuses, in our communities 
and across our nation.
    PowerShift is giving thousands of students the knowledge 
and resources necessary to implement these changes and continue 
to empower other students.
    This coming January, more than 1,000 universities will 
simultaneously educate hundreds of thousands of students on 
solutions to global warming during the first-ever Focus the 
Nation event. This event will be the biggest national teach-in 
in U.S. history.
    Educating and developing thousands of young leaders on 
solutions to global warming, Focus the Nation will be critical 
to the start of 2008. Unique to this event, Focus the Nation 
will connect faculty and students to build a better future 
together, bridging a generational gap that has not been 
connected since the civil rights movement of the 1960s.
    Something big is happening. Our generation has realized the 
challenge ahead, and we are stepping up to the plate. The 
movement is here, it is now, and the youth won't back down 
until our voices are acknowledged and action is taken.
    People ask me why I care. I care because this is my future. 
This is the future of my children, the future of our home, our 
health, our happiness. I care because, if I don't, who will? 
This is why we all care. We will not sit by and watch as the 
place we love, the place we call home is driven into the 
ground.
    Today, I am asking you to recognize what is happening. This 
movement is big, and it will not dissipate. We don't want to be 
dependent on unrenewable resources. We don't want to oppress 
any more communities. We have made our voices clear, and we are 
continuously striving to become louder than ever. It is time 
our government take action and join us.
    Thank you.
    The Chairman. Great.
    [The statement of Ms. McCormick follows:]

    [GRAPHIC] [TIFF OMITTED] T8245A.009
    
    [GRAPHIC] [TIFF OMITTED] T8245A.010
    
    [GRAPHIC] [TIFF OMITTED] T8245A.011
    
    The Chairman. Our final witness is Mr. Mike Reagan, who is 
a student at UC Davis and the Statewide Board Chair of CALPIRG 
for students. As a board member of CALPIRG, Mr. Reagan has 
coordinated campaigns to fight global warming across the State. 
On campus, he has led the student lead efforts calling for a 
larger investment in renewable energy at his school. Recently, 
Mr. Reagan gathered over 170,000 people to advocate for more 
clean energy and funding for public transportation.
    We welcome you, Mr. Reagan. Whenever you are ready, please 
begin.

                    STATEMENT OF MIKE REAGAN

    Mr. Reagan. Thank you, Chairman Markey; and I thank the 
Select Committee on Energy Independence and Global Warming for 
allowing us to speak.
    My name is Mike Reagan. I am here to represent the CALPIRG 
student chapters as the statewide board chair. But I also 
represent the student body and the University of California, 
Davis, and I represent my entire generation of young people.
    I am calling on Congress to take urgent action on global 
warming by passing the energy bill as a down payment on our 
future. To solve global warming, Congress must make the hard 
decisions that will change our relationship to energy 
consumption and sustainability. So far, our Congress has not 
acted.
    In contrast, I have spent the last several years of my life 
organizing for the change I think we desperately need, and I am 
not alone in taking this issue into my own hands. Governments 
at the State level and students like myself across the country 
are moving forward. We are not waiting for leadership from 
Congress. Instead, we are engaging in the fight.
    Our generation has been lost in the shuffle of the 
political game, and it will be our generation who will shoulder 
the brunt of a growing crisis. We understand the devastating 
effects of global warming because we have the most to lose.
    But in the face of Federal inaction on the most critical 
issue facing our generation today, we have grown cynical. We 
generally distrust government to solve our problems, so we are 
not surprised that neither Congress nor the White House is 
leading the effort to solve global warming.
    Additionally, we are brought up in a culture of blockbuster 
news, focused on grabbing the short attention spans of 
Americans. As a result, many of the youth generation are unsure 
of the solutions that exist to this problem.
    So you would think that our generation would be immobilized 
with cynicism of our leaders and despair that our problem can't 
be solved. But, in fact, the opposite is true. As a student 
leader, I have decided to work where I have the greatest impact 
and building a base of engaged students who focus on policy 
solutions at UC Davis. And in my community I have worked to get 
students politically active, and it is proving to work.
    Recently, I organized students' voices to urge our school 
to build more sustainable buildings on campus, including 
persuading our administration to fund a building with student 
dollars, which is now qualified as one of the greenest 
buildings in the world. We have switched in 5,000 energy 
efficient light bulbs in the last few weeks; and we have 
promoted energy efficiency and conservation with solar 
smoothies, making banana shakes with the power of the sun, and 
film screenings of An Inconvenient Truth have been overwhelming 
popular on college campuses across the country.
    Across the State, my organization, CALPIRG, has led efforts 
in the UC Santa Cruz for a student referendum to run the 
university on 100 percent renewable energy. At UC Berkeley and 
UC Santa Barbara, we created collective student funds to spur 
sustainable projects on campus. And so far this school year, we 
have educated over 34,000 students in California on the 
solutions to global warming through clean car shows, lights-out 
dorm contests and much, much more.
    At the Statewide level, we have campaigned to urge our 
political leaders to make the hard decisions. In 2005, I 
personally raised over $6,000 for Environment California to 
pass the million solar roofs bill, which is the largest 
investment of solar power in the history of the world. In the 
summer of 2006, I raised over $8,000 for Environment California 
to pass the Global Warming Solutions Act, the biggest step this 
Nation has taken to fight global warming so far. And thousands 
of students as campus activists and canvassers were on the 
front lines building support for these policy reforms. From 
these examples, you can see that young people like myself are 
seeing the solutions and acting.
    In State capitals, change is taking place as well. Now over 
5,000 students from across the country have gathered together 
for universal change at the University of Maryland this 
weekend. You can only anticipate more.
    Therefore, today I urge Congress to act against global 
warming. Specifically, Congress should pass the energy bill 
this session. Congress should mandate 15 percent of our 
electricity to come from clean, renewable sources by 2020 as 
well as raise the average mile per gallon from cars and trucks 
to 35 by 2020.
    Such action will be recognized as a down payment on our 
clean future. It will allay our cynicism and renew our sense 
that Congress wants to lead our country into the future that my 
generation will inherit.
    On behalf of myself, the students at UC Davis and on behalf 
of students across the country and my entire generation, I 
implore you not only to act by passing the energy bill this 
session, I implore you to keep taking the necessary strides it 
will take to lead us off our unsustainable path onto a new, 
more promising, healthy future.
    Thank you, Chairman Markey, and thank you to the committee.
    [The statement of Mr. Reagan follows:]

    [GRAPHIC] [TIFF OMITTED] T8245A.012
    
    [GRAPHIC] [TIFF OMITTED] T8245A.013
    
    The Chairman. Thank you, Mr. Reagan, very much. And that 
completes time for the opening statements from our witnesses.
    Mr. Parish, you are one of the founding fathers of the 
youth movement calling for action on global warming. Can you 
tell us how this movement has changed and grown over the last 5 
years? What has happened?
    Mr. Parish. In only a few years this movement has gone from 
a handful of student groups on college campuses around the 
country to student groups on over 1,000 schools across the 
country. And we were starting with trying to pass 10 percent 
clean energy policies on our campuses. And in this past year, 
we have passed 426 climate neutrality policies on our campuses. 
So we have seen the interest and the conviction get much 
deeper. We have seen the support across our generation get much 
broader, and we have seen tremendous victories from, you know, 
education to policy.
    The Chairman. So what is it about the green movement that 
is attracting so many young people?
    Mr. Parish. We know that our future is on the line, and it 
is, you know, not only about the environment. It is about our 
economy. It is about this war. It is about our health. It is 
about our future. So, you know, young people want to be part of 
something bigger than themselves. Our society has not 
encouraged us to build solidarity and to be part of our 
communities. It has encouraged an individualism and consumerism 
that has divided us for too long.
    Our generation is coming together around this issue as a 
unifying force and a positive vision for this country and for 
the world.
    The Chairman. Okay. You know what I think would be helpful 
is if you could talk a little bit about the green job potential 
and where you see those jobs being created and how it can 
affect your generation in terms of where they work for their 
time here on the planet.
    Mr. Parish. Right. One of the documents that I am 
submitting for the Congressional Record is the call for a 
National Clean Energy Corps, which outlines a $200 billion ask 
for Congress, which sounds like a lot but actually isn't. The 
Clean Energy Corps would more than pay for itself in the energy 
cost savings that it would generate.
    We want to put $10 billion into doubling opportunities for 
national service around energy efficiency and climate. We want 
$50 billion for State and local green jobs development to train 
people in the skills that they need to weatherize homes, to put 
up solar panels, to expand green space and do a number of other 
activities that help build community and solve global warming.
    And finally, we want $140 billion for a revolving loan fund 
to finance energy efficiency projects around the country. We 
want those jobs to go to the people that have been locked out 
of the old dirty economy and we want to give them pathways out 
of poverty into the new green economy. We want them to go to 
underserved communities. We want them to go to veterans from 
the wars in Afghanistan and Iraq and around the world. We want 
them to go to workers that are losing their jobs because of 
manufacturing leaving, or to create a just transition for 
workers in dirty industries in this country.
    The Chairman. Thank you.
    Ms. Cochran, could you talk a little bit about the 
community in New Orleans and the jobs that were lost and the 
impact of Katrina and how you see this green revolution 
benefiting that community? It is an illustration of the 
intensity of the storms that are now hitting all parts of the 
globe, and the impacts that it has especially upon the poorest 
people who are most vulnerable.
    Ms. Cochran. New Orleans has changed a bit since Hurricane 
Katrina. We have made a lot of progress and there are still 
some ways to go. A lot of the city, a lot of the tourist areas 
of the city have come back, but there are still parts of New 
Orleans that look the same as they did 2 years ago.
    As far as jobs lost, the whole community in New Orleans 
East is still struggling to come back. There were lots of 
stores, shopping centers, different schools that have not 
reopened, in which a lot of jobs were lost, which has caused 
people to relocate. I know a lot of people in New Orleans still 
have trouble just rebuilding their homes because the resources 
aren't available. Stores just like Home Depot that was once 
opened is closed. And you have to travel so far just to get the 
materials needed to put your lives back together.
    As far as the progress in New Orleans, the way it affects 
me, I know personally at my university and other universities 
in the cities, a lot of the degree programs have been 
discontinued, because a lot of the faculty members and staff 
have relocated because they can't put their lives back together 
there in the city.
    A lot of new programs have started. I participated in a 
Safe Way Back Home program with Deep South Center for 
Environmental Justice. And with that program, what we did, we 
took a block in New Orleans East, we dug up the whole lawn, we 
resodded it, we put in new grass, new landscaping, as an 
incentive to get people to come back, as an incentive to make 
the community look like it still has life. And it makes people 
want to say, you know, this is my home, you know. It doesn't 
matter if your inside is fixed good if the block looks like it 
did the day after Hurricane Katrina. It is not an incentive for 
people to come back.
    Another program that is about to start is they are offering 
training and a grant with HUD, Healthy Homes Project. And 
people are getting trained in environmentally safe renovations 
and remodeling work practices and it includes information on 
mold remediation, soil remediation, and efficient ways to 
conserve energy in the home. And the next training will be 
November 17.
    So, like we are starting different things to get people to 
come back. And just in case another hurricane happens, we will 
know how to recover quicker. So I think New Orleans is going to 
come back. I think it is going to take some time. But wish help 
from Congress and other youth leaders, I think we can do it.
    The Chairman. Thank you.
    Ms. Lockwood, you made a mention of Shishmaref. How many 
other communities in Alaska are in the same position; that is, 
that they are vulnerable as well to the effects of climate 
change and the impact on their village in the same way that 
tens of millions, maybe hundreds of millions of dollars are 
going to have to be spent to relocate Shishmaref and the people 
that live there? Could it happen in other parts of Alaska as 
well?
    Ms. Lockwood. Yes, it can. Because there are so many 
communities that live on the coast all over Alaska, like all 
the coastal areas. And everybody depends on fish. And it would 
take a lot of money just to move a place of 500 people, and 
that doesn't even seem worth it. I mean, it has happened to one 
community. And my guess is there are over 100 other communities 
that are in need of help from coastal erosions. And for my 
community, we do not have enough money from our corporations, 
or just like we don't even have any funding from anywhere to 
help our own communities. So, yeah.
    The Chairman. Thank you.
    Mr. Reagan, you were talking about raising the fuel economy 
standard from 25 miles per gallon to 35 miles per gallon and 
having 15 percent of all of our electricity come from wind and 
solar by 2020. Do you think that the young people are ready to 
rally behind that over the next 4-5 weeks?
    Mr. Reagan. Yes. Yes, I do. Billy spoke very eloquently of 
how the movement changed a lot in the last few years. We 
focused on mobilizing our generation, speaking to them on where 
we are at. And like I said in my testimony, our generation will 
bear the brunt of this assault on the Earth. And we have been 
calling out in a very unified voice for change on our college 
campuses, with our State and local governments. The only 
institution that has been slow to listen has been Congress so 
far. And that is why there are so many people gathered here 
today to advocate for change. And I feel that that is proof 
that this generation can rally around this.
    We have over 5,000 people, students this weekend at the 
University of Maryland, rallying around this one issue, and 
thousands of others around the country in their own events on 
college campuses.
    The Chairman. I thank you. And I appreciate the three-point 
program as well that Mr. Parish laid out for us. But those two 
numbers that I just mentioned--and that you mentioned, Mr. 
Reagan, in your testimony--those are two important numbers too, 
35 and 15; 35 miles per gallon for all vehicles, 15 percent of 
all electricity coming from renewables both by 2020, in just 12 
years from now. That would just trigger this revolution just in 
those two areas. So 35 and 15 are key numbers.
    And we are going to be voting on those two numbers in the 
next 4 to 5 weeks here in Congress. And it will be the most 
important change that has happened since I was elected to 
Congress 31 years ago. And it will be the most important vote 
that we have had on energy and environment in 31 years. And if 
we win that, as you said in your testimony, Mr. Reagan, that 
will be the building block, that will be the first step. And 
then we can move on to a cap and auction and trade bill that 
will limit by 80 percent the greenhouse gases by 2050 that we 
can do next year. But we have to win this first one, we have to 
prove that we can win on 35/15. We have to prove that we can 
push that through and put it on President Bush's desk.
    And that will be a big opportunity for us because it will 
happen right around the time that the world is meeting in Bali, 
and Al Gore is going to Oslo to receive the Nobel Peace Prize. 
So all of it will be happening right at the same time. So we 
are going to need your energy, your efforts, in order to be 
able to be successful on that vote. It is coming up right now, 
you don't have to wait for the election in 2008. There is 
something big happening here in the Congress in the next 4 to 5 
weeks. And we are going to need your help on that as well.
    Ms. McCormick, you are down in Tennessee. You are talking 
about the coal issue. How is the renewable issue being received 
down in Tennessee?
    Ms. McCormick. Well, a lot of people support it. But in 
these regions there are a lot of underprivileged families that 
don't realize what change can do for them. And if we could just 
have the support of our government to implement these changes 
and make a switch over to renewable energies and have a smooth 
transition from the dirty industry that is there now, that is 
hurting them but they rely on these industries to be there, 
this is how they support themselves, this is how they put food 
on their table. And they are scared that if we are talking 
about switching, they are going to lose their jobs. But that is 
not the case if we can have your support, because we can make a 
smooth transition and get this dirty industry out of this 
region.
    The Chairman. And what success have you already seen in 
your own school in terms of changing the way your own school 
views these issues?
    Ms. McCormick. Our school feels very strongly about these 
issues. We have taken many polls. And the general student 
population there has voted to implement an increase in their 
own tuition, to raise their own tuition prices to ensure that 
our campus is not purchasing this coal that is coming from this 
region. We care very much about this region, and we see 
directly the changes that it is having and the number of people 
that it is affecting. And we are in full support of this.
    The Chairman. How much have you increased your tuition in 
order to effectuate the green revolution on your campus?
    Ms. McCormick. For in-State tuition, it is like a $20 
increase. And for out-of-State, it is just a little more.
    The Chairman. And what did you do with that money?
    Ms. McCormick. That money goes to a committee that 
allocates the funding for renewable energy on campus. We have a 
responsible coal purchasing policy. And that money is funding 
that, and we have a certain amount set aside for other 
projects.
    The Chairman. And do any of the others of you have on your 
own campus fees on the student body that are then used for 
renewable energy purposes? How many people out there are on 
campuses that have a renewable energy fund?
    That is great. That is a phenomenal revolution because you 
are the leaders in your own community. And then giving 
illustrations as to how this can work for everyone to create 
new jobs. As you are doing these projects, you are creating 
jobs for people who have to then come in from the community to 
construct these facilities.
    Mr. Parish, this is a movement that is not only here in the 
United States. You made reference to it around the world. Could 
you elaborate on that?
    Mr. Parish. There are young people that came to Power Shift 
from at least half a dozen countries around the world. But more 
importantly, there are youth networks that have emerged and are 
emerging all over the world and have rallied around very 
similar strategies and goals for their work. We are working 
first and as our core focus to make our own schools and our own 
communities models of the sustainable future and society that 
we want to see. But we are also rallying around building an 
international framework for reducing emissions globally at the 
scale of the problem.
    I also want to add that as young people, you know, we are 
coming here today as a youth movement seeking partnership with 
our parents' generation and our grandparents' generation. We 
don't want a divided movement. We don't want to be only a youth 
movement. We want a national mobilization on this issue. So we 
come here, calling on our parents and our grandparents to join 
us in this fight for our future.
    The Chairman. Mr. Parish, what is your message to the 
corporations who are fighting this clean energy movement--this 
clean environment movement? What do you say to those 
corporations who are fighting you and this movement?
    Mr. Parish. I say they are going down. Young people are 
very, very savvy on these issues. They know green washing when 
they see it. They don't want to buy from companies that aren't, 
you know, attentive to the sustainability of this planet. They 
want to work for, invest in, and buy products from companies 
that really are trying to do things in a sustainable way. They 
are starting their own businesses to replace the businesses of 
the past that are not attentive to these concerns.
    The Chairman. Okay. You know I think maybe what we could do 
is ask each of you, if you would, to give us your best 1 
minute. What is the 1 minute you want Congress to remember 
about your movement and the change that you want to see for our 
country and for our planet?
    And we will go in reverse order. And we will begin with 
you, Mr. Reagan if you could. Give us the message you want the 
Congress to remember.
    Mr. Reagan. I would be happy to. My message is that 
students across the country have been acting for change for 
years. They have been advocating on the campuses, they have 
been advocating on the governments locally and statewide to 
solve a problem that is going to affect our generation more 
than any other and to solve a problem that is devastating. The 
effects of global warming are so tremendous when the solutions 
are so simple. And now it is time for Congress to act. Now it 
is time to get onboard and make the changes, to take the tough 
decisions that it will take to lead us on a cleaner energy 
future, and to provide a path and ensure that government is for 
the people and not for, as we say, corporations and the 
corporate community.
    The Chairman. Thank you, Mr. Reagan. Ms. McCormick.
    Ms. McCormick. I would like to say to Congress that it is 
not just our youth that are waking up. People across our Nation 
are waking up and unifying to send this same message to 
Congress that we no longer support unrenewable resources. And 
we want to put the energy the money and the work into starting 
new and reusable sources of energy.
    And I would just like to say that this movement is not 
going to stop. And if Congress won't listen, we will just be 
here look knocking on the door even longer.
    The Chairman. Ms. Cochran.
    Ms. Cochran. I just want to remind Congress that I am here 
to represent ordinary people. Global warming, the effects of 
global warming happen every day. Even after the TV cameras go 
off, after the flashes stop flashing, the news stops reporting 
about it, ordinary people feel the effects of global warming 
every day. So it is very important to implement policy changes 
now that affect our future when there are not the headlines in 
the news. It is very important that we feel safe in our 
community, that we can breathe clean air, we have clean jobs, 
and support renewable energy.
    The Chairman. Thank you, Ms. Cochran. Ms. Lockwood.
    Ms. Lockwood. I would like to ask as an individual and as a 
representative of my future generation, and of Alaska, for the 
Congress to open up their hearts and their ears and to be a 
good support, a good buddy, a good friend, a good anything, 
like a good somebody to us and help us out for saving our 
values.
    The Chairman. Thank you, Ms. Lockwood.
    Mr. Parish. I want Congress to put partisan politics aside 
for one moment. I want the Congress to understand that, you 
know, their future, their children's future and future 
generations' lives are truly at stake. And we have a very, very 
small window of time to change the direction of our culture and 
our economy, to move it in a more sustainable direction.
    The Chairman. Thank you, Mr. Parish. And we thank each of 
you.
    Again, I think we have a great chance before the next 
election, before the election of 2008, to pass a climate change 
bill, to pass a cap and auction in trade bill, which will lead 
to the reduction by 80 percent of the greenhouse gases which we 
emit on this planet by the year 2050. But the test vote on that 
is going to be here in Congress over the next 4 to 5 weeks. And 
that will be the vote on 35/15. Because if we can't increase 
renewable electricity by 15 percent by 2020, if we can't 
increase the fuel economy standards of the vehicles that we 
drive to 35 miles per gallon by 2020, then we will not have 
seen the progress which we need politically in order to build 
the momentum towards reducing by 80 percent the greenhouse 
gases by the year 2050.
    So we have to win first here over the next 4 to 5 weeks, 
and then, before the next election, have the big vote on the 80 
percent reduction by the year 2050. But it won't happen without 
you. It won't happen without your efforts. It won't happen 
without the energy that you can bring to this issue over the 
next 4 to 5 weeks.
    This is the moment. This is the time. This is the place. 
Never before have so many people been in the Ways and Means 
Committee room at the same time.
    You are absolutely the biggest crowd of people. This is the 
largest audience for a committee hearing in the history of 
Congress. And you are in the room right now as we are having 
it. And there is a whole generation which is rising and 
speaking on these issues.
    And as Billy said, you are the largest generation. You are 
speaking for the 21st century. You are testifying on behalf of 
the 21st century. You are testifying on behalf of the future of 
the planet, of the poor people on the planet, of the whole 
vision of what this planet can be. So we need your help, your 
work over the next 4 to 5 weeks on this bill, that is the first 
step that will lead to the much larger step of an 80 percent 
reduction by 2050.
    We can't thank each of you enough for the excellent 
testimony which you gave today. With the thanks of the 
committee, this hearing is adjourned. Thank you all so so much.
    [Whereupon, at 10:58 a.m., the committee was adjourned.]

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
